CERTIFICATE OF
COMPLIANCE
I hereby certify that the accompanying Brief Of Amicus Curiae The
Charlotte Lozier Institute Supporting Petitioner in Rutledge et al. v. Little Rock
Family Planning Services et al. (No. 20-1434) complies with the word count
limitations of Supreme Court Rule 33.1(h) in that it contains 5,646 words, based
on the word-count function of Microsoft Word – Office 365, including footnotes
and excluding material not required to be counted under Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 13, 2021.

/s/ Gene C. Schaerr
Gene C. Schaerr

